TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Compliance With Statutory Provisions
                    Regarding the Use of Tax Information in
                   Nontax Criminal Investigations Cannot Be
                                   Verified



                                      September 12, 2006

                              Reference Number: 2006-10-127




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 8 = Information Reflecting the Bureau’s Decision-Making Processes



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 12, 2006


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Compliance With Statutory Provisions Regarding
                             the Use of Tax Information in Nontax Criminal Investigations Cannot
                             Be Verified (Audit # 200510031)

 This report presents the results of our review of the use of tax information in nontax criminal
 investigations.1 The overall objective of this review was to determine whether the Criminal
 Investigation (CI) function’s accesses to tax return information were made properly, as
 authorized for tax administration purposes. This audit is a follow-on to a prior audit.2 In that
 audit, the Internal Revenue Service (IRS) Office of Chief Counsel, Division Counsel/Associate
 Chief Counsel (Criminal Tax), had advised the CI function that information related to grand jury
 investigations could not be provided to us without potentially violating the secrecy provisions of
 the grand jury process. As a result, we deferred some of the audit tests to this audit and
 attempted to resolve the secrecy provision limitations by requesting access to nongrand jury
 supporting documents and soliciting assistance from the particular United States Attorney’s
 Offices in charge of a sample of grand jury investigations. Despite indicating an initial
 willingness to assist with our audit, two of three United States Attorney’s Offices determined
 that all information from our sample cases was grand jury in nature and thus could not be
 released to us for auditing purposes.

 Impact on the Taxpayer
 To promote the sound administration of the nation’s tax laws, we conduct comprehensive and
 independent performance audits of IRS programs and operations. In this instance, grand jury


 1
  See Appendix IV for a Glossary of Terms.
 2
  The Criminal Investigation Function Should Consider Changes to Its Custody of Original Tax Returns and
 Controls for Accessing Tax Information Electronically (Reference Number 2006-10-028, dated January 2006).
                  Compliance With Statutory Provisions Regarding the Use of Tax
                 Information in Nontax Criminal Investigations Cannot Be Verified



secrecy rules3 precluded our determining if taxpayer information used in nontax criminal
investigations was in compliance with the Tax Code. However, we noted indications that
procedures to deter noncompliance with Internal Revenue Code (I.R.C.) § 61034 disclosure
provisions could be improved.

Synopsis
This audit was conducted in accordance with Government Auditing Standards, except for the
Field Work Standard for Performance Audits governing sufficient, competent, and relevant
evidence.5 We did not have sufficient evidence to provide a reasonable basis for findings and
conclusions about the CI function’s access to tax information on nontax investigations;
accordingly, we are issuing a disclaimer of opinion.
In addition to tax crimes, the CI function is involved in other areas of financial investigation that
may or may not have an obvious relationship to tax administration, such as money laundering,
securities fraud, narcotics, embezzlement, terrorism financing, and public corruption. When an
investigation does not have a direct connection to a tax administration statute and the CI function
has not designated the investigation as otherwise related to tax administration, CI function
personnel do not have an inherent right to access or use tax information possessed by the IRS.
Use of tax information in purely nontax investigations is allowed only pursuant to Federal
Government disclosure provisions, which normally would involve obtaining a detailed court
order from a district judge or magistrate allowing use of the information for nontax purposes.6
Due to the nature of nontax investigations, the vast majority are conducted jointly with at least
one other Federal Government law enforcement agency and use the grand jury process to
facilitate the investigations. Grand jury secrecy rules, in turn, generally create an environment
that severely hinders our ability to audit the CI function’s compliance with many tax provisions,
including tax information disclosure provisions.
From our limited-scope review, we noted indications that procedures to deter noncompliance
with I.R.C. § 6103 disclosure provisions could be improved. Three of the 10 investigations
sampled from the field office that provided us with responsive documents were noncompliant
with I.R.C. § 6103. Notwithstanding our disclaimer of opinion, we are providing the results of
our limited review to CI function management for use in considering potential improvements to
policies and procedures for compliance with disclosure provisions.




3
  Federal Rules of Criminal Procedure, 18 United States Code Appendix Rule 6(e) (2005).
4
  I.R.C. § 6103 (2004).
5
  Government Auditing Standards 2003 Revision (GAO-03-673G, dated June 2003).
6
  26 United States Code § 6103(i) (2004).
                                                                                                2
                Compliance With Statutory Provisions Regarding the Use of Tax
               Information in Nontax Criminal Investigations Cannot Be Verified




Response
We made no recommendations in this report. CI function management officials reviewed the
discussion draft report and responded they are acutely aware of the seriousness of unauthorized
disclosures of information protected by I.R.C. § 6103. The provisions of I.R.C. § 6103 are
constantly reemphasized to all CI function employees and are an integral part of training
programs and continuing professional education sessions. CI function management responded
they believe the current statutory framework, case law, regulations, policy, and procedures
provide adequate safeguards to protect taxpayers from unauthorized disclosures. However,
because the prevention of unauthorized disclosures is a critical matter, the CI function will issue
a guidance memorandum reemphasizing relevant policy and procedures regarding the disclosure
of tax information and reminding employees of the ramifications of failing to adhere to them.
CI function management officials also provided written comments which we considered in
revising the final report to make it more informative to the reader. Management’s complete
response to the discussion draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report information.
Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Acting
Assistant Inspector General for Audit (Headquarters Operations and Exempt Organizations
Programs), at (202) 622-8500.




                                                                                              3
                      Compliance With Statutory Provisions Regarding the Use of Tax
                     Information in Nontax Criminal Investigations Cannot Be Verified




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Secrecy Rules Preclude an Effective Oversight Review Because of
          the Prevalence of Grand Jury Cases .............................................................Page 4
          Management Should Consider Improving Procedures That Deter
          Noncompliance With Statutory Restrictions ................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Glossary of Terms................................................................Page 15
          Appendix V – Management’s Response to the Discussion
          Draft Report ..................................................................................................Page 17
          Compliance With Statutory Provisions Regarding the Use of Tax
         Information in Nontax Criminal Investigations Cannot Be Verified




                         Abbreviations

CI                    Criminal Investigation
CIMIS                 Criminal Investigation Management Information System
FY                    Fiscal Year
IDRS                  Integrated Data Retrieval System
I.R.C.                Internal Revenue Code
IRS                   Internal Revenue Service
TIGTA                 Treasury Inspector General for Tax Administration
U.S.C.                United States Code
                  Compliance With Statutory Provisions Regarding the Use of Tax
                 Information in Nontax Criminal Investigations Cannot Be Verified



        The situation that most frequently causes confusion to a special agent arises when the
        special agent is participating in a money laundering investigation or a multi-agency
        money laundering or other multi-agency Federal grand jury investigation and tax
        charges are not the main focus of the investigation.6
Nontax crimes within the CI function’s jurisdiction involve money laundering, securities fraud,
narcotics, embezzlement, terrorism financing, public corruption, and many others. Due to the
nature of such nontax investigations, the vast majority are conducted jointly with at least one
other Federal Government law enforcement agency and use the grand jury process to facilitate
the investigations. Grand jury secrecy rules,7 in turn, generally create an environment that
severely hinders our ability to audit the CI function’s compliance with various laws, regulations,
policies, and procedures, including tax information disclosure provisions.
This audit is a follow-on to a prior audit.8 In that audit, the IRS Office of Chief Counsel,
Division Counsel/Associate Chief Counsel (Criminal Tax),9 had advised the CI function that
information related to grand jury investigations could not be provided to us without potentially
violating the secrecy provisions of the grand jury process. As a result, we deferred some of the
audit tests to this audit and attempted to resolve the secrecy provision limitations by requesting
access to nongrand jury supporting documents from CI function files and soliciting assistance
from the particular United States Attorney’s Offices in charge of a sample of grand jury
investigations. All three Offices in our sample initially stated a willingness to assist us in an
audit of this area. However, only one of the three United States Attorney’s Offices allowed the
CI function field office to provide responsive documents to us. The other two Offices
determined that all information from our sample cases was grand jury in nature and thus could
not be released due to grand jury secrecy provisions. This situation is discussed further in the
first section of this audit report.
We conducted this audit during the period November 2005 through July 2006 and engaged
CI function personnel at the National Headquarters in Washington, D.C., and the
Boston, Massachusetts; Dallas, Texas; and Miami, Florida, field offices. We requested the
assistance of three United States Attorney’s Offices.




6
  Internal Revenue Manual 9.3.1.4.3.1.1 (04-13-2005).
7
  Federal Rules of Criminal Procedure, 18 U.S.C. Appendix Rule 6 (2005).
8
  The Criminal Investigation Function Should Consider Changes to Its Custody of Original Tax Returns and
Controls for Accessing Tax Information Electronically (Reference Number 2006-10-028, dated January 2006).
9
  A function within the IRS Office of Chief Counsel responsible for providing legal guidance.
                                                                                                       Page 2
                    Compliance With Statutory Provisions Regarding the Use of Tax
                   Information in Nontax Criminal Investigations Cannot Be Verified



This audit was conducted in accordance with Government Auditing Standards, except for the
Field Work Standard for Performance Audits governing sufficient, competent, and relevant
evidence.10 Because the United States Attorney’s Office interpretation of the grand jury secrecy
rule in two locations prohibited the CI function from providing any documents responsive to our
objective, we did not have sufficient evidence to provide a reasonable basis for findings and
conclusions about the CI function’s access to tax information on nontax investigations;
accordingly, we are issuing a disclaimer of opinion. Notwithstanding this disclaimer of opinion,
we are providing the results of our limited-scope review to CI function management for use in
considering potential improvements to policies and procedures for compliance with disclosure
provisions.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




10
     Government Auditing Standards 2003 Revision (GAO-03-673G, dated June 2003).
                                                                                          Page 3
                     Compliance With Statutory Provisions Regarding the Use of Tax
                    Information in Nontax Criminal Investigations Cannot Be Verified




                                        Results of Review

Secrecy Rules Preclude an Effective Oversight Review Because of the
Prevalence of Grand Jury Cases
In the past several years, the Treasury Inspector General for Tax Administration (TIGTA) has
sought clarification of what is covered by grand jury secrecy rules through the advice of the
TIGTA Office of Chief Counsel, the IRS Office of Chief Counsel, and Offices of Counsel for the
Department of the Treasury and Department of Justice. Rule 6(e) of the Federal Rules of
Criminal Procedure states that persons shall not disclose matters occurring before the grand jury,
except as otherwise provided for in the Rules. A knowing violation of Rule 6 may be punished
as a contempt of court, with the court having the discretion to decide whether the matter should
be treated criminally or civilly. Disclosures of grand jury information may also be prosecuted as
criminal violations of Title 18 United States Code (U.S.C.) § 150311 (relating to impeding the
administration of justice).
The TIGTA’s contention is that, in each grand jury investigation, it is unlikely all information
and documentation kept by the CI function is grand jury information. There is uncertainty in the
law surrounding what constitutes grand jury information, and the issue is subject to much debate.
While there is a lengthy history of legal analysis of Rule 6(e)’s secrecy mandate for “matters
occurring before the grand jury,” analysis provided to us indicated the United States Supreme
Court has not specifically defined the profile for how that language should be interpreted. As a
result, the Federal circuit courts were split in their relative approaches and the degree to which
they are open to disclosures in the grand jury area.
A Department of Justice Manual includes the following description of what is covered by
Rule 6(e), footnoted with several court case citations:12
           Rule 6(e) does not cover all information developed during the course of a grand jury
           investigation, but only information that would reveal the strategy or direction of the
           investigation, the nature of the evidence produced before the grand jury, the views
           expressed by members of the grand jury, or anything else that actually occurred before
           the grand jury.
For purposes of our audit, we sought to obtain only nongrand jury information that would not
reveal matters occurring before a grand jury. However, the following caveat, also in the above
Manual, may have affected our evidence-gathering effort:

11
     18 U.S.C. § 1503 (2005).
12
     United States Department of Justice, Criminal Division, Federal Grand Jury Practice (January 1993).
                                                                                                           Page 4
                 Compliance With Statutory Provisions Regarding the Use of Tax
                Information in Nontax Criminal Investigations Cannot Be Verified



       The local rules in a particular jurisdiction may provide for additional secrecy. The local
       rules of one district court, for example, contain particularly strict secrecy requirements
       for subpoenaed documents. Consequently, the local rules regarding the disclosure of
       information concerning grand jury should be carefully reviewed before making any
       disclosures.

We could not determine if the CI function had complied with I.R.C. § 6103
Despite indicating an initial willingness to assist with our audit, two of three United States
Attorney’s Offices determined that all information from our sample cases was grand jury in
nature and thus could not be released to us for auditing purposes. An interpretation applied in
the two Judicial Districts was that Rule 6(e) prohibits the release of any and all material
associated with the CI function’s investigation from the point it became a grand jury case. A
more open interpretation of Rule 6(e), which was applied in the third Judicial District, apparently
considered the substance of the materials in determining what could be shared for auditing
purposes without divulging any secret workings of the grand jury. For that sample, we received
responsive evidence, which included redacted (blacked-out) portions on some documents where
the material had been deemed appropriate to withhold.
The CI function’s position, per the advice of the IRS Office of Chief Counsel, Division
Counsel/Associate Chief Counsel (Criminal Tax), was that, when the classification of material as
grand jury or nongrand jury is in question, the ultimate decision to release information falls
within the purview of the attorney for the Federal Government (i.e., the United States Attorney’s
Office or other pertinent Department of Justice official) and the CI function could not provide us
with information related to grand jury investigations without potentially violating the grand jury
secrecy provisions. One Assistant United States Attorney suggested to CI function management
that, as an alternative, a statement or an affidavit could be provided to us, affirming that the audit
sample cases were reviewed by the IRS and asserting whether accesses to tax information were
authorized. We declined this suggestion because it does not satisfy standards for auditors to
independently evaluate audit evidence, particularly when considering our audit population
represented instances in which we sought to verify whether tax information had been accessed
improperly on nontax cases in potential violation of law.
As a result, our scope of review consisted of only 10 nontax investigations, as recorded in the CI
Management Information System (CIMIS), for 1 CI function field office where access to tax
information had occurred, as opposed to our planned scope of 30 sampled investigations from
3 dispersed field offices. These results, although valid for the individual cases reviewed, were
not sufficient to support a sound basis for audit findings, conclusions, and recommendations. As
mentioned earlier, a large part of an auditor’s responsibility under the Government Auditing
Standards is obtaining and evaluating evidence that ultimately supports his or her judgments and
conclusions pertaining to the audit objective. The absence of sufficient evidence, in this instance
due to the grand jury secrecy issue, results in a disclaimer from providing any assurances or
recommendations.
                                                                                               Page 5
                  Compliance With Statutory Provisions Regarding the Use of Tax
                 Information in Nontax Criminal Investigations Cannot Be Verified



other hand, neither we nor CI function managers can reliably ascertain solely from CIMIS data
whether accesses to tax information on nontax cases were authorized, were inadvertent
noncompliance, or were violations of law.
The IRS has an annual awareness program to increase employees’ knowledge about their
responsibilities regarding disclosure of taxpayer information. More specifically, CI function
management officials advised us that disclosure provisions are constantly reemphasized to all
CI function employees and are an integral part of training programs and continuing professional
education sessions. We believe a vigilant deterrent effort is warranted because the risk of
unauthorized access to confidential tax information is a problem across all IRS operating
functions that will likely persist in spite of the serious consequences that violators face. Despite
the IRS’ continuous education efforts, the number of unauthorized access violations investigated
by the TIGTA has remained relatively constant over the last 8 years. We do not intend to imply
that this risk is indicative of actions by CI function personnel; however, TIGTA proactive
reviews have identified IRS personnel across all functions who had inappropriately viewed
confidential tax information for invalid reasons.14
In our prior report on controls over tax returns and return information, we concluded that
supporting documentation to show the purposes of electronic accesses to tax information was not
readily available or did not exist.15 We recommended the CI function improve the basic control
procedures regarding IDRS access to tax information. CI function management took several
actions in response to that recommendation. For example, CI function group supervisors were
reminded of the usefulness and availability of IDRS Security Reports as a management oversight
tool. We continue to encourage CI function management to conduct such oversight reviews and
also to reconsider whether additional controls are necessary to effectively ensure accesses to tax
information are authorized and appropriate. Additional actions may be necessary; a recent
TIGTA report on the IDRS security system concluded that a majority of IRS managers were not
reviewing IDRS Security Reports, resulting in little confidence that IRS managers are detecting
potential unauthorized accesses of taxpayer information by employees.16 Also, IDRS Security
Reports generally do not show individual accesses made to taxpayer accounts; thus, CI function
managers would have to make further inquiries, based on Security Report information such as
unusual command code activity, to determine if accesses to tax information were authorized.
The issue of unauthorized access to tax information continues to generate interest. For example,


14
   In addition to IRS monitoring of the IDRS, the TIGTA Office of Investigations Strategic Enforcement Division
conducts comprehensive proactive reviews of IDRS audit trail information for employees of all IRS operating
functions to identify unauthorized accesses of tax information of celebrities; political figures; and employees’
neighbors, former spouses, and relatives.
15
   The Criminal Investigation Function Should Consider Changes to Its Custody of Original Tax Returns and
Controls for Accessing Tax Information Electronically (Reference Number 2006-10-028, dated January 2006).
16
   Increased Managerial Attention Is Needed to Ensure Taxpayer Accounts Are Monitored to Detect Unauthorized
Employee Accesses (Reference Number 2006-20-111, dated July 2006).
                                                                                                          Page 8
                  Compliance With Statutory Provisions Regarding the Use of Tax
                 Information in Nontax Criminal Investigations Cannot Be Verified



upon the release of the TIGTA report on the IDRS security system, Congress expressed concerns
regarding the possibility of unauthorized access to taxpayer information by IRS employees.
In another prior report, we recommended CI function management take necessary steps to ensure
the accuracy of CIMIS data, which are used to facilitate program oversight and resource
decisions.17 Since issuance of that report, the CI function has developed a new iteration of the
CIMIS with upgrades to address identified problems, including prior audit recommendations,
and has strengthened operating system controls. In this instance, we again suggest CI function
management continue to ensure the CIMIS can accurately differentiate between tax-related and
nontax investigations to facilitate CI function group supervisors’ monitoring of the IDRS.




17
 The Criminal Investigation Function Has Made Progress in Investigating Criminal Tax Cases; However,
Challenges Remain (Reference Number 2005-10-054, dated March 2005).
                                                                                                       Page 9
                   Compliance With Statutory Provisions Regarding the Use of Tax
                  Information in Nontax Criminal Investigations Cannot Be Verified



                                                                                                      Appendix I

           Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the CI function’s accesses to tax return
information were made properly, as authorized for tax administration purposes. To accomplish
this objective, we planned to evaluate IDRS inputs made by CI function personnel to cases
controlled as nontax investigations on the CIMIS.1
During FY 2004, CI function personnel accessed tax information associated with over
1.3 million taxpayers, inputting over 17 million IDRS command codes. In terms of case
inventory, our analysis of the CIMIS identified 4,981 subject investigations (full-scale criminal
investigations to prove or disprove an allegation against an individual or entity) that:
       •   Were in open investigation status at some point during FY 2004 or for which the
           subsequent legal process had not yet been completed during FY 2004.
       •   Did not have a direct connection to a tax-related violation.
       •   Had not been designated as otherwise related to tax administration.
    We identified the nontax nature of each case based on the statutory violations entered into the
    CIMIS at the time of the case allegation and, if applicable, the prosecution recommendation. Of
    these nontax cases, 97 percent (4,853) were coded as grand jury cases. A comparison of CIMIS
    data to the FY 2004 IDRS audit trail identified 723 of the 4,853 grand jury case taxpayers
    (15 percent) were accessed by CI function personnel. We selected our samples from this
    population of 723 taxpayers.2
As discussed in the first section of the audit report, limitations to the scope of our review meant
we could not conduct the audit in accordance with the Government Auditing Standard regarding
Field Work Standards for Performance Audits.3 Because the interpretation of the grand jury
secrecy rule by the United States Attorney’s Offices in two locations prohibited the CI function
from providing any documents responsive to our objective, we did not have sufficient evidence
to provide a reasonable basis for findings and conclusions. The impact of being unable to meet
the Field Work Standard is a disclaimer from providing any assurances or recommendations.


1
  See Appendix IV for a Glossary of Terms.
2
  Many accesses by CI function employees relate to associates of a subject or to persons and entities somehow
related to an investigation. Other accesses relate to the CI function’s evaluation of investigative leads or allegations
prior to a case being initiated on the CIMIS. We limited the scope of our audit population to the persons who were
subjects of investigations.
3
  Government Auditing Standards 2003 Revision (GAO-03-673G, dated June 2003).
                                                                                                               Page 10
                  Compliance With Statutory Provisions Regarding the Use of Tax
                 Information in Nontax Criminal Investigations Cannot Be Verified



Our methodology included the following steps. Specifically, we:
I.      Requested the assistance of selected United States Attorney’s Offices in approving the
        release from grand jury cases of CI function documents responsive to our audit test.
        A. Selected the three United States Attorney’s Offices based on the highest volumes of
           cases per judicial district from the 723 investigation case population, while avoiding
           the repetitive selection of CI function field offices considering recent audit
           participation. The locations selected were three of the six top judicial districts by
           volume of cases and were geographically dispersed.
        B. Asked the United States Attorney’s Offices via letter to review responsive documents
           identified by the CI function, determine whether the documents were grand jury
           material, and identify any grand jury material for the CI function.
II.     Reviewed a judgmental sample of nontax investigations, as recorded in the CIMIS, that
        had audit trail history for the subject taxpayer.
        A. Through assessment of the electronic data sources used in this audit, concluded the
           data were of undetermined reliability. However, answering the audit’s objective
           would not be feasible if the data were not used, and it was our opinion that using the
           data would not weaken the analysis or lead to an incorrect or unintentional message.
             1. The CIMIS had a reputation of being partially incomplete or incorrect. An IRS
                attempt in 2003 to determine the validity of the CIMIS using a statistically valid
                sample indicated that one of the data fields we would use to determine our audit
                scope received one of the lowest accuracy ratings in the review. In addition,
                another data field used to determine our scope had no valid entry for 14 percent of
                the pertinent records, although it was supposed to be a mandatory entry field. In
                addition, we had observed other CIMIS accuracy problems over the course of
                previous audits.4
             2. The IDRS audit trail also had a reputation of being partially incomplete or
                incorrect. Audit trail data are obtained daily from the IRS mainframe computer.
                Other than record count matches, validity checks are limited because each record
                contains a 41-character variable field that contains different contents based on the
                IDRS command code input. The audit trail is organized by using logical rules to
                select which digits within the variable field identify the tax account accessed, but
                this method is not foolproof. In addition, during our preceding audit, for one
                command code we identified a pattern in which the audit trail did not always


4
 Since our FY 2004 snapshot of CIMIS data, the CI function has developed a new iteration of the CIMIS with
upgrades to address identified problems, including prior audit recommendations, and has strengthened operating
system controls.
                                                                                                         Page 11
               Compliance With Statutory Provisions Regarding the Use of Tax
              Information in Nontax Criminal Investigations Cannot Be Verified



              include specific information to identify what taxpayer account was accessed. This
              issue illustrates that the audit trail data are not complete.
          3. Additional steps to determine data reliability prior to testing were not feasible.
             For samples selected, the electronic data would ultimately be validated on a
             case-by-case basis as we reviewed source documents and obtained comments
             from CI function management.
       B. Designed judgmental samples to select 10 cases from each applicable CI function
          field office to discover an adverse condition if any existed. Statistically valid random
          sampling techniques were not used because we did not plan to project our results to
          the audit population and a statistically valid sample size would have required the
          review of a significantly larger number of grand jury-related cases.
       C. Analyzed CIMIS and IDRS data for members of the audit population.
III.   Requested responsive documents from three CI function field offices to determine
       whether IDRS access to tax information satisfied disclosure provisions.
       A. Forwarded our audit samples to the three respective CI function field offices and
          asked that they coordinate with the United States Attorney’s Offices. Samples of
          10 cases were forwarded to 2 field offices, and a sample of 8 cases was forwarded to
          1 field office.
       B. Reviewed the supporting documentation and explanations from one CI function field
          office regarding the tax information accesses.
IV.    Requested the assistance of the TIGTA Office of Chief Counsel in reviewing instances of
       potential noncompliance with statutory disclosure provisions.




                                                                                           Page 12
               Compliance With Statutory Provisions Regarding the Use of Tax
              Information in Nontax Criminal Investigations Cannot Be Verified



                                                                             Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
John R. Wright, Director
Diana M. Tengesdal, Audit Manager
Timothy A. Chriest, Lead Auditor
Darryl J. Roth, Senior Auditor
Ahmed M. Tobaa, Senior Auditor
John M. Caporale, Auditor




                                                                                    Page 13
               Compliance With Statutory Provisions Regarding the Use of Tax
              Information in Nontax Criminal Investigations Cannot Be Verified



                                                                              Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Operations Policy and Support, Criminal Investigation SE:CI:OPS
Director, Strategy, Criminal Investigation SE:CI:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS




                                                                                    Page 14
                Compliance With Statutory Provisions Regarding the Use of Tax
               Information in Nontax Criminal Investigations Cannot Be Verified



                                                                             Appendix IV

                            Glossary of Terms

Criminal Investigation       The CIMIS is a database that tracks the status and progress of
Management                   criminal investigations and the time expended by special
Information System           agents. Capabilities include direct data entry from the field,
(CIMIS)                      real-time query, and report features. It is used as a
                             management tool that provides the basis for decisions of both
                             local and national scope.
Integrated Data              The IDRS enables IRS employees to have instantaneous visual
Retrieval System             access to certain taxpayer accounts. The IDRS is a large-scale
(IDRS)                       computer system designed to maintain national database files
                             with access capability from remote locations. The System
                             employs storage devices and visual display terminals located in
                             field offices to provide a two-way rapid communications
                             pipeline between the field and the database files, presenting a
                             ready source of current information on taxpayers. The IDRS
                             maintains an automatic electronic chronological record of
                             system activities (i.e., an audit trail) to permit reconstruction,
                             review, and examination of IDRS command codes used.
Nontax                       A nontax investigation is the contrast to a tax investigation.
Investigation/Case           The CI function has investigative authority regarding many
                             statutes but defines tax cases as only those investigations
                             relating to violations of any statute within U.S.C. Title 26
                             (I.R.C.) or Title 26 related false claims and conspiracy statutes
                             at 18 U.S.C. §§ 286, 287, or 371 (2005). Even when the
                             matters being investigated are not specifically within the tax
                             statutes of the I.R.C., the CI function has a procedure that
                             allows managers to declare that an investigation is “related to
                             tax administration.”
Tax Administration           26 U.S.C. § 6103(b)(4) (2004), as paraphrased, defines tax
                             administration as the administration, management, conduct,
                             direction, and supervision of the execution and application of
                             the internal revenue laws or related statutes and tax
                             conventions to which the United States is a party and
                             enforcement under such laws, statutes, or conventions.

                                                                                      Page 15
               Compliance With Statutory Provisions Regarding the Use of Tax
              Information in Nontax Criminal Investigations Cannot Be Verified



Tax Code                    U.S.C. Title 26 is entitled Internal Revenue Code and is
                            commonly referred to as the Tax Code.
Tax Information             For purposes of this report, we use the term “tax information”
                            in lieu of the following definitions paraphrased for return and
                            return information from 26 U.S.C. §§ 6103(b)(1) and (2)
                            (2004). A return is any tax return or information return,
                            schedules, and attachments, including any amendment or
                            supplement, that is required or permitted to be filed and is filed
                            by a taxpayer with the Secretary of the Treasury. The
                            definition of return information is broad and primarily relates
                            to information other than a taxpayer’s return itself that the IRS
                            has obtained from any source or developed through any means
                            that relates to a potential liability under the Tax Code. It
                            includes information extracted from a return (e.g., the names of
                            dependents, locations of business interests, and bank accounts).




                                                                                     Page 16
 Compliance With Statutory Provisions Regarding the Use of Tax
Information in Nontax Criminal Investigations Cannot Be Verified



                                                    Appendix V

   Management’s Response to the
      Discussion Draft Report




                                                          Page 17
 Compliance With Statutory Provisions Regarding the Use of Tax
Information in Nontax Criminal Investigations Cannot Be Verified




                                                          Page 18
 Compliance With Statutory Provisions Regarding the Use of Tax
Information in Nontax Criminal Investigations Cannot Be Verified




                                                          Page 19
